                    DEPARTMENT OF DEFENSE




      JOINT
  AUDIT REPORT

    JOINT CONTRACTING FOR
    DEPOT MAINTENANCE OF
       SECONDARY ITEMS
Report No. 98-085            March 4, 1998
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate
at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

             OAIG-AUD (ATTN: APTS Audit Suggestions)
             Inspector General, Department of Defense
             400 Army Navy Drive (Room 801)
             Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to hotline@dodig.osd.mil; or by
writing the Defense Hotline, The Pentagon, Washington, DC 20301-1900.       The
identity of each writer and caller is protected.




Acronyms

CAGE       Commercial and Government    Entity
FSC        Federal Supply Class
ICP        Inventory Control Point
NSN        National Stock Number
                                                                            March 4, 1998


MEMORANDUM         FOR UNDER SECRETARY OF DEFENSE
                          (ACQUISITION AND TECHNOLOGY)

SUBJECT:     Audit Report on Joint Contracting for Depot Maintenance   of
             Secondary Items (Report No. 98-085)


         We are providing this audit report for review and comment. This audit was
requested by the Joint Logistics Commanders, and was performed as a joint audit effort
under the auspices of the Joint Logistics Audit Planning Group. The Naval Audit Service
led this audit effort with participation from the DOD Inspector General and Army and
Air Force audit organizations.

        The Under Secretary of Defense (Acquisition and Technology) did not provide
comments on the draft report. DOD Directive 7650.3 requires that all recommendations
be resolved promptly. Therefore, we request that the Under Secretary of Defense
(Acquisition and Technology) provide comments on the final report by May 4, 1998.

        We appreciate the courtesies extended to the audit team. Questions on the audit
should be directed to Ms. Barbara M. Cobble, Naval Audit Service, at (703) 604-2027
(DSN 664-2027) (bcobble@audit.navy.mil)      or Mr. Luther Bragg, Naval Audit Service, at
(703) 604-0739 (DSN 664-0739) (lbragg@audit.navy.mil).        The audit team members are
listed on the inside back cover. See Appendix F for report distribution.




                                                 David K. Steensma
                                          Deputy Assistant Inspector General
                                                     for Auditing
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                   4OOARMYNAVYDRIVE
                              ARUNG’WN, WRGINLd 222024384




                                                                        March 4,1998


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (ACQUISITION AND TECHNOLOGY)

SUBJECT: Audit Report on Joint Contracting for Depot Maintenance of
         Secondary Items (Report No. 98-085)


        We are providing this audit report for review and comment. This audit was
requested by the Joint Logistics Commanders, and was performed as a joint audit effort
under the auspices of the Joint Logistics Audit Planning Group. The Naval Audit Service
led this audit effort with participation from the DOD Inspector General and Army and
Air Force audit organizations.

        The Under Secretary of Defense (Acquisition and Technology) did not provide
comments on the draft report. DOD Directive 7650.3 requires that all recommendations
be resolved promptly. Therefore, we request that the Under Secretary of Defense
(Acquisition and Technology) provide comments on the final report by May 4, 1998.

        We appreciate the courtesies extended to the audit team. Questions on the audit
should be directed to Ms. Barbara M. Cobble, Naval Audit Service, at (703) 604-2027
(DSN 664-2027) (bcobble@audit.navy.mil) or Mr. Luther Bragg, Naval Audit Service, at
(703) 604-0739 (DSN 664-0739) (lbragg@audit.navy.mil). The audit team members are
listed on the inside back cover. See Appendix F for report distribution.




                                         Deputy Assistant Inspector General
                                                   for Auditing
                           DOD Joint Logistics Audit Planning Group

Report No. 98-085                                                     March 4,1998
  (Project No. 7LD-5027)



                             Joint Contracting for
                      Depot Maintenance of Secondary Items


                                    Executive Summary

Introduction.    This audit was requested by the Joint Logistics Commanders and was
performed as a joint audit effort under the auspices of the DOD Joint Logistics Audit
Planning Group. The Naval Audit Service led this effort, with participation from the
DOD Inspector General and Army and Air Force audit organizations.        Joint contracting
for depot-level maintenance involves having a contractor perform maintenance for more
than one DOD component under a single contract administered           by just one DOD
component.     DOD guidance emphasizes the desirability of joint contracting agreements
between the Services to achieve the most cost-effective depot maintenance possible. The
reviewed data files contained 5,643 separate maintenance contracts valued at $1.8 billion
that were open as of the second quarter of FY 1997.

Objectives. The objectives of the audit were to determine opportunities for combining
existing depot maintenance contracts into joint contracts, and to identify savings from
increased use of joint contracts for depot maintenance.

Audit Results. The Services did not identify and initiate actions to use joint contracts for
depot-level maintenance.       We determined that at least 3,479 contracts, valued at
$1.2 billion, in our audit universe, involving multiple Services using the same repair
facility or supplier, were candidates for joint contracting.      Opportunities    for joint
contracting may also exist for repair of similar items. Since there were no current or
historical examples of joint contracting agreements, we could not identify specific
savings. However, we believe many opportunities for administrative efficiencies and
economies-of-scale   cost savings exist.

Summary of Recommendations.           We recommend that the Under Secretary of Defense
(Acquisition and Technology) gxpand DOD guidance relative to joint contracting to better
facilitate such contracting, and charter an Integrated Product Team to develop a joint
contracting process.     In addition, we recommend that the Deputy Under Secretary of
Defense (Acquisition Reform) integrate a joint contracting training module into course
curricula to ensure that personnel receive joint contracting training.

Management Comments.          Comments were not received to a draft of this report.
Therefore, we request that the Under Secretary of Defense (Acquisition and Technology)
provide comments on the final report by May 4, 1998.
Table of Contents

Executive Summary                                                           i

Part I - Audit Results

      Audit Background                                                     2
      Audit Objectives                                                     3
      Joint Contracting                                                    4

Part II - Additional Information

      Appendix A. Audit Process                                            18
        Scope and Methodology                                              18
        Sample Selection                                                   19
        Organizations and Individuals Visited or Contacted                 19
        Management Control Program                                         20
        Prior Audit Coverage                                               20
      Appendix B. Contracts With Same Repair Facility (Category A)         21
      Appendix C. Contracts for Repair of Items Supplied by Same
                    Contractor (Category B)                                27
      Appendix D. Federal Supply Classes With Similar Items (Category C)   31
      Appendix E. Definitions of Key Terms                                 33
      Appendix F. Report Distribution                                      34
Part I - Audit Results
Audit Results


Audit Background
       This audit was requested by the Joint Logistics Commanders and was performed
       as a joint audit effort under the auspices of the Joint Logistics Audit Planning
       Group. The Joint Logistics Commanders asked the Group to determine whether
       there are opportunities for joint contracting in depot maintenance.

       Depot-level maintenance represents the most extensive level of maintenance and
       entails repair, rebuilding, and major overhaul of principal end items (e.g., aircraft,
       ships, and tanks), parts, assemblies, and subassemblies.    It also includes limited
       manufacture of parts, modifications, reclamation, technical support, and testing,
       as well as software maintenance.

       DOD spends about $11 billion to $14 billion annually for depot-level
       maintenance.    Projected costs for FYs 1996 through 2001 exceed $74 billion. Of
       the total DOD estimated cost of $11.5 billion for FY 1997, about $7.0 billion was
       for work to be performed            in Government-operated    facilities  (organic
       maintenance) and $4.5 billion was for work to be performed at privately operated
       facilities  (contract maintenance).    Contract maintenance includes depot-level
       maintenance of principal end items and secondary items (reparable components,
       minor end items, and repair parts). This audit focused on contract depot-level
       maintenance for Service-managed, secondary reparable items.

       DOD 7000.14-R, “DOD Financial Management Regulation,” March 16, 1993,
       requires each DOD component to report depot maintenance             workloads and
       identify the portions that are inter-service and joint contract.       Inter-service
       represents maintenance performed by the organic (Government-owned)        activity of
       one Service in support of an activity from another Service. Joint contracting is
       maintenance performed by a contractor for more than one DOD component under
       a single contract administered by just one DOD component.       For FY 1996, DOD
       reported $423 million in inter-service and joint contracting depot maintenance and
       repair work.      Of this amount, $417 million (98.6 percent) was organic
       maintenance    and $6 million (1.4 percent) was contract maintenance.            (See
       Appendix E for definitions of key terms.)

       A related key goal of the DOD is to reduce the operating and support costs for its
       weapon systems and equipment. Joint contracting is in keeping with this goal and
       Goal 9 of the “DOD Acquisition”           National Performance    Review, DOD
       Reinvention   Impact Center, to eliminate the layers of management        through
       streamlined processes while reducing the DOD acquisition and related workforce
       by 15 percent by the year 2OW.




                                             2
                                                                                  Audit Results

Audit Objectives
    The objectives of the audit were to:

       l   Determine     opportunities    for   combining     existing    depot      maintenance
           contracts into joint contracts.

       l   Identify savings     from    increased    use    of joint     contracts     for   depot
           maintenance.

    See Appendix   A for a discussion of the details on scope,                    methodology,
    management control program, and related prior audit coverage.




                                            3
Joint Contracting



Joint Contracting
       The Services did not identify and initiate action to use joint contracts for depot-
       level maintenance     of secondary items.      We determined that at least 3,479
       contracts in our audit universe of 5,643 contracts involved multiple Services using
       the same repair facility or supplier. The 3,479 contracts were candidates for joint
       contracting. Opportunities for joint contracting may also exist for repair of similar
       items.     While Defense policy required establishment         of joint contracting
       maintenance     arrangements,   guidance did not provide specific criteria for
       identifying joint contracting opportunities,    and did not establish processes to
       accomplish joint maintenance        contracts. As a result, the Services missed
       opportunities for administrative efficiencies and economies-of-scale   cost savings.



Policies and Procedures

       The Federal Acquisition Regulation, Part 37, “Service Contracting,” defines a
        service contract as a contract that directly engages the time and effort of a
       contractor whose primary purpose is to perform an identifiable task (such as
       maintenance, overhaul, and repair) pertinent to equipment, supplies, or systems.
       Contracts awarded to a single source without the benefit of competition must be
       justified in accordance with Part 6, Subpart 6.3, “Other than Full and Open
        Competition.”

       DOD Directive 4151.18, “Maintenance of Military Materiel,” August 12, 1992,
        establishes policy and assigns responsibility for the performance of DOD materiel
       maintenance, including maintenance of hardware, equipment, and software, for
        both organic and contract types of maintenance.        It is DOD policy that inter-
        service (involving multiple Services), intra-service (within the same Service), and
       joint contracting maintenance support arrangements shall be established and
       executed to achieve the most cost-effective depot maintenance possible, consistent
        with readiness requirements of the Services.



Use of Joint Contracts

       Existing Maintenance Contracts.          The Services did not identify and initiate
       action to use joint contracts for depot-level maintenance of secondary items. We
       obtained data files from the Services’ Inventory Control Points (ICPs) for depot-
       level maintenance contracts that were open during the second quarter of FY 1997.
       We identified seven contracts where one Service reported using another Service’s
       repair contract. However, these seven contracts related to the repair of items used
       by more than one Service that required materiel support rather than joint


                                             4
                                                                Joint Contracting


contracting.   Thus, the Services’ data did not contain any cases of joint
contracting.   We interviewed ICP personnel, including contracting officers,
engineers, equipment specialists, item managers, and program managers.   ICP
personnel were not aware of their use of any joint contracts for depot-level
maintenance of secondary items.

Consolidation     Opportunities.       Opportunities   exist to consolidate   repair
requirements for two or more Services on joint contracts.          We analyzed the
Services’ depot-level maintenance contracts for commonalities         and identified
three categories of criteria where joint contracting opportunities may exist:

       Category A - Same repair facility:     Services separately contracting   with
       the same repair facility.

       Category B - Same supplier: Services separately contracting for repairs of
       items that are supplied by the same contractor (manufacturer).

       Catagory C - Similarity of items: Services separately contracting for
       repair of items that may be similar enough to warrant a joint contract (the
       items have the same Federal Supply Class (FSC), same item name, and
       similar standard price).

The data files provided by the ICPs contained 5,643 separate contracts, valued at
$1.8 billion, for repair of 18,698 items with separate national stock numbers
(NSNs).      We determined that
the 5,643 contracts            were
                                                  NSNs by Category
awarded      to 1,79 1 separate
contracting      entities.       BY
applying the described criteria
(Categories A, B, and C), we          10,oot

divided the contract data files        8,00(
into    three    unique     subsets
                                       6,00(
matching      the criteria.      As
shown in the chart at right, of        4m
the    18,698     NSNs,      10,544    2m
applied to Category A, 4,606
                                           (
applied to Category B, and                   Category A Category B Category C
3,548 applied to Category C.
Joint Contracting


       Consolidation    opportunities exist in Category A (same repair facility) and
       Category B (same supplier).     We also noted there was the potential for joint
       contracts related to Category C (similarity of items).

            Same Repair Facility. Instances where two or more Services already have
       repair contracts at the same repair facility represent the best opportunity for joint
       contracting. We used the Commercial and Government Entity (CAGE) codes to
       identify repair facilities. By comparing CAGE codes among contracts in the data
       files, we determined that 308 of the 1,791 repair facilities had repair contracts
       with multiple Services (a separate contract for each Service).       The 308 repair
       facilities account for 2,554 contracts, valued at $860 million, or about 45 percent
       of all repair contracts in the data files. (Appendix B lists the CAGE codes, name
       of repair facility, location, and number of contracts awarded for instances where at
       least five contracts were awarded to the same repair facility.)           To test the
       feasibility of joint contracting,      we reviewed 20 “scenarios” (41 contracts).
       Hereafter in this report, scenarios refer to instances with at least two repair
       contracts in more than one Service.

       We determined that multiple Services using the same repair facility under separate
       contracts represent joint contracting opportunities.    The following Tables 1
       through 3 illustrate three examples of such joint contracting opportunities from
       our audit sample:
                                                                                     Joint Contracting




                                    Table 1
                      Example 1 of Potential Joint Contract
                            for Same Repair Facility

          Repair Facility: GEC-Marconi Electronic Systems Corporation, Wayne, NJ
          Service Activities: Army Communications-Electronics   Command
                              and Naval Inventory Control Point



                                       Details on Contracts

                   Contract               Length of       Dollar                  Weapon
Service            Number                 Contract        Value                   System

AMY           DAAB0795DA013             1 year with    $4.9 million      AN/ASN- 128 Light-
                                        two l-year                       weight Doppler System
                                        options                          and ANIASN- 137
                                                                         Improved Lightweight
                                                                         Doppler System

Navy          NOO38395DOO4J             3 years with   $3.5 million      AN/APN- 187 Doppler
                                        two l-year                       Velocity Altimeter
                                        options                          Radar Set




                                        Items on Conl rcts

       Contract Number                    NSN                          Item Name

   DAAB0795DA013
                              I-

                                   5841-01-318-0654     Receiver-Transmitter,      Radar       I
   NOO38395DOO4J              1 5841-00-168-3486        Computer,      Tracker, FR

                              I 5841-00-168-3487        Control Indicator

                                   5841-00-168-3489     Receiver-Transmitter

                                   5841-00-168-7683     Antenna,      Microwave




                                                        Circuit Card Assembly

                                                        Circuit Card Assembly




                                                 7
Joint Contracting




                                          Table 2
                            Example 2 of Potential Joint Contract
                                  for Same Repair Facility

      Repair Facility: Moog Inc. Aircraft Group, Torrance Operations, Torrance, CA
      Service Activities: Naval Inventory Control Point and Oklahoma City Air Logistics Center



                                            Details on Contracts

                        Contract            Length of           Dollar                      Weapon
        Service         Number               Contract           Value                       System

       Navy         NOO38395GOO2H          2 years           $3.0 million        Components of Flight
                                                                                 Control System for
                                                                                 F/A- 18 Aircraft

       Air Force    F3460195D0366          1 year with       $1 .O million       Hydraulic Motor/
                                           two l-year                            Actuator for F- 16
                                           options                               Aircraft



                                             Items on Contracts

              Contract Number                 NSN                              Item Name

          NOO38395GOO2H             1 1650-00-4 18-3 158       1 Servo Valve, Hydraulic

                                        1650-01-089-6802        Housing-Sleeve-Slid

                                        1650-01-089-6804        Housing-Sleeve-Slid

                                        1650-01-253-5836        Servo Cylinder

                                        1650-01-253-5837        Servo Cylinder

                                        1680-01-125-8905        Transmission,      Mechanical

                                        1680-Ol- 125-8906       Transmission,      Mechanical

                                        1680-Ol- 125-8907       Transmission,      Mechanical

                                        1680-Ol- 125-8909       Transmission,      Mechanical

                                    1 1680-01-l 14-0225        1 Transmission,     Mechanical

                                    I 6695-01-125-8859         I Transducer,     Motional

                                    1 6695-01-301-0814         1 Transducer,     Motional

          F3460195DO366                 1650-01-302-3404        Hydraulic      Motor

                                        1650-01-308-0839        Hydro-Mechanical        Actuator

                                    I   1650-01-261-8078       I Hvdro-Mechanical       Actuator




                                                         8
                                                                                Joint Contracting




                                   Table 3
       Example 3 of Potential Joint Contract for Same Repair Facility

       Repair Facility: Litton Systems Inc., Electron Devices Division, Williamsport, PA
       Service Activities: Army Missile Command and Sacramento Air Logistics Center


                                    Details on Contracts

                     Contract         Length of               Dollar             Weapon
     Service         Number            Contract               Value              System

                DAAHO196C0232      1 year with            $6.0 million      PATRIOT Crossed
                                   1-year option                            Field Amplifier
                                                                            assemblies

     Air        FO460696DOO78      1 year with two        $6.7 million      Traveling Wave
     Force                         1-year options                           Tube applicable to
                                                                            AN/FPS-108


                                     Items on Contracts

               Contract Number             NSN                           Item Name

             DAAHO196CO232          5960-01-l   lo-2668        Electron Tube

             FO460696DOO78          5960-01-01 l-6358          Electron Tube

                                                                                                 L




The preceding      examples    present    excellent   opportunities  to consolidate
requirements into one contract for the repair facility. The contracts were awarded
in the same fiscal year, cover similar periods of time, and were for repair of
similar types of items.     For Example 1, both the Army Communications-
Electronics Command and the Naval Inventory Control Point had previous
contracts with this same repair facility awarded in FY 1991. Therefore, the Army
and Navy missed two prior opportunities to consolidate requirements.

In addition to identifying opportunities for consolidating repair requirements of
multiple Services with the same repair facilities, we identified opportunities for
intra-service consolidations. ICPs within the same Service had prepared separate
depot maintenance contracts with the same repair facilities. Table 4 provides an
example:
Joint Contracting



                                            Table 4
                    Example of “Intra-Service” Consolidation          Opportunities

                Contract No.       CAGE                         ICP/Location

              F3460196D0354        017N4   Oklahoma    Air Logistics Center
              F4 160896D0847       017N4   San Antonio Air Logistics Center
              NOO10492GAO16        017N4   Naval Inventory   Control Point (Mechanicsburg      office)
              NOO38392GK201        017N4   Naval Inventory   Control Point (Philadelphia    office)




       From the contract data provided by the ICPs, we determined that 1,926 contracts
       were awarded to the same repair facilities by multiple intra-service ICPs. Table 5
       shows the intra-service opportunities for consolidating depot maintenance repair
       contracts with the same repair facility:




                                             Table 5
                    Intra-Service Opportunities for Consolidating             Contracts

                        Service            No. of CAGES               No. of Contracts

                       Army                       11                            63
                       Navy                      116                           810
                       Air Force                 136                          1,053
                         Total                   263                          1,926




            Same Supplier. The second category reviewed includes instances where
       least two different Services had existing depot maintenance           contracts that
       contained items supplied by the same contractor and were repaired by that
       supplier or an alternate repair facility. Due to time constraints, we excluded from
       our analysis all items having multiple original supplier CAGE codes. There were
       925 contracts,    valued   at $312 million,      remaining    after the exclusions.
       (Appendix C lists the CAGE codes, name of supplier, location, and number of
       contracts awarded where at least three contracts were for repair of items supplied
       by the same contractor.) To test the feasibility of combining these contracts, we
       reviewed 11 scenarios (49 contracts) in which items with common supplier CAGE
       codes were being repaired by at least 2 Services under separate contracts.


                                            10
                                                                                  Joint Contracting


We determined that items supplied by the same contractor provide opportunities
for joint contracting. Table 6 illustrates an example:


                                    Table 6
             Example of Potential Joint Contract for Same Supplier

                         Supplier:     Tektronix    Inc, Beaverton,   OR

         Contract          Repair                  Length of           Value          Weapon
         Number            Facility                Contract            ($000)         System

    DAAB0795DB755      Wilcox                1 year with four         $4525.2     AN/FPN-66
    (Army)                                   l-year options                       Radar Terminal

    NO0 10492GA094     Tektronix     Inc.    Basic Ordering            $I 10.0    General Purpose
    (Navy)                                   Agreement with                       Electronic Test
                                             requirements for                     Equipment
                                             7 years

    F0960396M 1853 &   Event Systems         Purchase Orders               $4.0   F-15/16
    F0960397M0200      and Digicomp                                        $0.4   Flight Simulator
    (Air Force)        (Tektronix Inc.                                            Terminal
                       listed as poten-
                       tial source of
                       repair)




As shown in Table 6, opportunities exist for joint contracting among more than
two Services. The contracts in the example cover a similar time period and the
items were supplied (manufactured) by the same contractor.

We concluded that the above example was an opportunity                to consolidate
requirements into one repair contract. In the example, we determined that under
Contract A, one activity is currently paying $1,746 for the repair of a graphics
terminal (7025-01-353-2481)      while another activity is having this same item
repaired for $450 at another repair facility.     By combining Army, Navy, and
Air Force requirements, Tektronix (the supplier of all the items) or the other repair
facilities may be able to offer DOD significant savings on overall repair costs.

     Contracts Meeting Categories A and B Criteria. From the data files, we
determined that 2,015 of the 5,643 contracts (36 percent) met both criteria (same
repair facility and same supplier). These instances offer the best opportunities for
joint contracting -- the Services currently have separate contracts with the same
company to repair items that were supplied by the same company (the repair
facility and the supplier facility may not be at the same location).




                                            11
Joint Contracting


            Similarity of Items Being Repaired. The last category for identifying joint
       contracting opportunities involves items with similar characteristics. We used the
       FSC, item name, and standard price to identify items for review. To determine
       similarity, we requested technical data and asked Service and DOD Inspector
       General engineers for their input.        There were 2,164 contracts, valued at
       $591 millio n, h aving 3,548 items from which to identify items meeting similarity
       criteria. To test the feasibility of joint contracting, we reviewed 38 scenarios
       (81 contracts) with the similarity criteria.   (Appendix D provides a listing of
       instances in which at least 10 similar items were being repaired in the same FSC.
       Other similar items also exist in Categories A and B.) Table 7 illustrates a joint
       contracting opportunity based on same FSC, same item name, and similar
       standard prices, involving       the Army (Army Communications-Electronics
       Command) and Navy (Naval Inventory Control Point):




                                              Table 7
                       Example of Potential Joint Contract for Similar Items

                        Original Equipment                                        Standard
             Service       Manufacturer             NSN            Item Name        Price

             Army       RCA Corporation      5960-01-030-5345     Electron Tube   $15,982

             Navy       Texas Instruments    5960~OO- 140- 1600   Electron Tube   $15,790




       The above example was identified by DOD Inspector General engineers as a
       candidate for joint contracting. While other instances of joint contracting for the
       repair of similar items may exist, such instances would each require a detailed
       engineering analysis on a case-by-case basis to determine the feasibility of
       consolidating.

       Sample Results.       As shown in the various tables and discussions above, the
       Army, Navy, and Air Force are not identifying           and acting on multiple
       opportunities to consolidate their depot-level requirements into joint contracts.
       We selected a judgmental sample of 69 scenarios (including all 3 categories) and
       determined     that 35 of 69 scenarios were candidates      for joint contracting
       consideration.     The results indicated that items with the same repair facility
       (Category A) and the items coming from the same supplier (Category B) were
       prime candidates       for consolidating,  while similar items being repaired
       (Category C) can also be candidates for consolidation but not as frequently. The
       primary reasons scenarios were not candidates for consolidation were: awarding
       sole source contracts (17 scenarios discussed below), developing           organic


                                               12
                                                                      Joint Contracting


     (government-operated)     capabilities (10 scenarios), and phasing out items
     (4 scenarios). Sample results are summarized in Table 8, while details on each of
     the 69 scenarios are available upon request.




                                        Table 8
                 Sample Results Regarding Consolidation       Opportunities




Impact of Sole Source Contracts on Joint Contracting Opportunities

      In our audit sample, 140 of 171 contracts were awarded sole source. We reviewed
     justification   and approval sections of contracts and determined      that DOD
     contracting officials complied with the Federal Acquisition Regulation, Part 6,
      Subpart 6.3. However, we did not verify the accuracy of the data supporting the
     justifications.  The most common reasons for awarding contracts sole source were
     lack of technical data, highly specialized equipment, trained personnel, test
     equipment, or proprietary data.

     We evaluated the extent to which sole sourcing of selected maintenance contracts
     would limit opportunities for joint contracting.      For Category A (same repair
     facility), the practice of awarding maintenance contracts to sole source contractors
     does not limit joint contracting opportunities, since the Services are using the
     same repair facilities. For Category B (same supplier), the practice of using sole
     source contracts limited joint contracting opportunities in 2 of the 11 scenarios
     reviewed. For both of these scenarios, the Navy awarded sole source contracts to
     repair facilities that were not listed as competitive sources for the corresponding
     Air Force contracts.     While the Navy typically awarded repair contracts to the
     original equipment      manufacturer,   the Warner Robins Air Logistics Center
     established an aggressive program for source development and selection.          This
     program should also increase sources of repair.



                                          13
Joint Contracting


       For Category C (similarity of items), the practice of using sole source contracts
       limited joint contracting opportunities in 15 of the 38 scenarios reviewed. In 4 of
       the 15 scenarios, individual Services awarded sole source contracts to repair
       facilities that were not listed as sources for the corresponding        competitive
       contracts in other Services. For the remaining 11 scenarios, separate Services
       awarded sole source contracts to different repair facilities, thereby precluding
       opportunities for joint contracts.



Expanding Published Guidance and Creating Processes
       DOD Directive 4151.18 encourages joint contracting by indicating that joint
       contracting maintenance arrangements should be established to achieve the most
       cost effective depot maintenance possible.    However, DOD guidance is not
       specific enough to enable the Service ICPs to achieve such joint contracting.
       Contracting and maintenance personnel use some general criteria when combining
       secondary items on depot maintenance contracts (i.e., same weapon system, same
       manufacturer,  similar technology, and age of equipment being repaired).        At
       Service ICPs, we reviewed procedures for combining reparable items on depot
       maintenance contracts. ICP personnel used various criteria for combining items
       on maintenance contracts but did not consider combining requirements for other
       Services and in some cases intra-service requirements.     This criteria included
       weapon system, manufacturer, or equipment type. To accomplish combined
       depot-level maintenance requirements, more specific guidance is needed.

       To achieve joint contracting for depot-level maintenance, a process must be in
       place that will provide acquisition         and logistics personnel    the necessary
       information to effectively implement the policy guidance. Communications          and
       procedures for interaction will be necessary for successful joint contracting
       efforts. An effective approach to encouraging implementation         and monitoring
       would be establishing an integrated team of representatives from the acquisition
       and logistics community to develop the applicable processes. Financial planning
       and resource management associated with the maintenance of secondary item
       inventories is another integral part of the process. To ensure financial policies and
       accounting procedures facilitate joint contracting, the Comptroller community
       should be a part of the team. These processes could affect personnel with major
       management commands, ICPs, and/or program offices. To eliminate barriers and
       provide broad-based understanding,        core competency training for contracting
       should be expanded to include joint contracting.




                                            14
                                                                      Joint Contracting


Potential Effkiencies
     Opportunities    exist for combining      requirements   among the Services and
     establishing joint contracts for depot-level maintenance of secondary items. The
     2,554 contracts in which multiple Services were using the same repair facility and
     925 contracts in which multiple Services were using the same supplier were prime
     candidates for joint contracting opportunities. In addition, the 2,164 contracts that
     involved multiple Services having similar items being repaired could also be
     considered for joint contracting.

     We reviewed existing contracts to determine opportunities that could affect future
     contracts.  Our identification of opportunities for combining requirements does
     not intend that current contracts be canceled and that the Services incur the
     associated termination costs. However, annual renewal options would not have to
     be exercised for future requirements, and future requirements could be combined.

     A Logistics Management          Institute report, “Consolidation  of DOD Inventory
     Control Points Under the Defense Logistics Agency,” September 1997, addressed
     the consolidation of DOD ICPs and identified potential process improvements that
     could produce savings. The first initiative was contracting methodology, which
     was identified as the most significant.       The report estimated a 2- to 6percent
     savings for direct and indirect personnel costs as a result of consolidation of
     contracting process. In addition to ICP labor costs, the report identified savings in
     acquisition costs and inventory investment due to consolidating the contracting
     process under the Defense Logistics Agency. Depot-level maintenance contracts
     are a portion of this universe.

     Since there were no current or historical examples of joint contracting, we were
     unable to document specific savings that may be attributed to joint contracting for
     depot-level maintenance.    However, as shown in the examples provided, materiel
     managers could achieve efficiencies through effective use of joint contracting.
     We would expect infrastructure reductions related to direct and indirect personnel,
     lower repair prices, and savings could occur in contract administration costs.

     Key goals of DOD and the Services are to reduce operating and support costs for
     weapon systems and equipment.       Joint contracting for depot-level requirements
     can help achieve those goals while also improving the opportunity for effective
     competition, and could identify the best practices for complementing    depot-level
     maintenance.     Monitoring and tracking the results will also provide a basis for
     considering the application of joint contracting to principal end items and other
     logistics processes.




                                          15
Joint Contracting


Recommendations
       A. We recommend      that the Under Secretary of Defense (Acquisition      and
          Technology):

              1. Expand DOD guidance relative to joint contracting to include:
                    a. Policy guidance for combining requirements for repairs to be
                        completed by the same contractor.
                    b. Criteria to identify cases where sufficient similarity exists to
                        warrant further analysis to determine if joint contracting could
                        be feasible.   At a minimum, the criteria should contain the
                        same supplier/manufacturer    and a combination of the same
                        Federal Supply Class, item name, and similar standard price.

              2. Charter an Integrated Product Team to develop a joint contracting
                 process for depot-level maintenance contracts. The Integrated Product
                 Team should include the Office of the Secretary of Defense contracting
                 and comptroller personnel, the Services’ contracting and logistics
                 personnel, and Defense Logistics Agency contracting personnel. The
                 objectives of the team should include requirements to:
                     a. Establish      and   execute     joint   contracting      maintenance
                          agreements     to achieve     the most       cost-effective    depot
                          maintenance possible.
                     b. Ensure joint contracting is used when DOD criteria are met
                          consistent with readiness of the Services.
                     C.   Design communications      processes for use by the Services to
                          exchange     information     necessary     to accomplish        joint
                          maintenance contracts.
                     d. Establish     performance    reporting    and measurements         that
                          monitor and track results of joint contracts in terms of support
                          and costs.

       B. We recommend that the Deputy Under Secretary of Defense (Acquisition
          Reform) integrate a joint contracting training module into course curricula to
          ensure that personnel receive joint contracting training.     Joint contracting
          training should include DOD criteria for identifying candidates for joint depot
          maintenance contracts as well as procedures for accomplishing joint depot
          maintenance contracts.


Management Comment+ Required
       The Under Secretary of Defense (Acquisition and Technology) did not respond to
       the draft of this report. We request the Under Secretary of Defense (Acquisition
       and Technology) provide comments on this final report.

                                             16
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology

     We reviewed 171 contracts within the Services to determine opportunities for
     combining existing depot-level maintenance contracts into joint contracts and to
     identify savings derived from the use of joint contracts for the depot maintenance
     of secondary items. We limited our review to secondary items. Two primary
     reasons drove this decision - to facilitate performance of the audit and to arrive at
     more probable opportunities for consolidation.      However, our limitation should
     not be construed as a constraint on the applicability of joint contracting to depot-
     level maintenance for all items, including principal end items. Because there
     were no current or historical examples of joint contracts for depot-level
     maintenance, we were unable to identify specific savings attributable to joint
     contracting.

     We requested data files from all Service ICPs containing information on depot
     maintenance contracts that were open during the second quarter of FY 1997. The
     data files we received from the Service ICPs contained 7,235 records.             We
     analyzed these records and determined that 719 were not contract document
     numbers and 873 had invalid or missing data. These 1,592 contract records were
     not further analyzed. We did not attempt to verify the accuracy of the data files
     provided except to ensure that the total funds reported as obligated for depot-level
     repair of secondary items were reasonable.

     In the absence of DOD criteria, we developed            criteria to analyze the
     5,643 contracts. We divided the contract data into three unique categories based
     on the following criteria:

            Category A. Services separately contracting    with the same repair facility.

            Category B. Services separately contracting for repairs of items that are
            supplied by the same contractor (manufacturer).    We limited the contracts
            for consideration for this criteria to NSNs having one supplier.

            Category C. Services separately contracting for repair of items that may
            be similar enough to warrant a joint contract (the items have same FSC,
            same item name, and similar standard price).

     From the contracts in each category (A, B, or C), we judgmentally selected depot
     maintenance contracts to review for joint contracting opportunities. The intent is
     not to cancel current contracts and incur termination costs, but to identify
     consolidation opportunities for future requirements.

                                          18
                                                          Appendix A. Audit Process


     We interviewed contracting personnel, engineers/equipment        specialists, item
     managers, and program managers for sample contracts to assess the feasibility of
     combining contracts and/or specific items on depot maintenance contracts. When
     we determined that the repairable items on contract had no future contract
     requirement, we performed no further analysis on those contracts and concluded
     that the sample was not a potential candidate for consolidation.  We determined
     that the sole source justifications     complied with the Federal Acquisition
     Regulation, but we did not determine the accuracy of the supporting information.
     We requested technical data from the ICP personnel, when appropriate, and
     requested engineering assistance to determine similarity.

     This economy and efficiency audit was conducted from February 1997 through
     October 1997. The audit was conducted in accordance with auditing standards
     issued by the Comptroller General of the United States and, accordingly, included
     such tests of internal controls as were considered necessary.



Sample Selection

     The Services provided data files for open depot maintenance contracts. From the
     Federal Logistics Information System, we extracted the supplier CAGE code and
     standard price for each NSN in the data files. Our analysis of the combined data
     files indicated that the commonalities were repair facility CAGE, supplier CAGE,
     FSC, item name, and similar standard price. Our sample breakout, based on the
     three category criteria, is shown in the following table:



                                        No. of         No. of
                        Category      Scenarios      Contracts

                           A              20             41

                            B             11             49

                            C             38             81

                          Total           69            171


     We defined a scenario as at least two contracts in more than one Service.



Organizations and Individuals Visited or Contacted

      Contacts During the Audit.          We visited or contacted individuals      and
     organizations   within DOD. Further details are available upon request.




                                          19
Appendix A. Audit Process


Management Control Program

      DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
      requires  DOD organizations       to implement    a comprehensive   system of
      management     controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of the controls.

      Scope of Review of the Management Control Program.              We reviewed        the
      management control plans for each activity visited during the audit.

      Adequacy of Management Controls. There were no controls in place relative to
      joint contracting for depot maintenance of secondary items. Consequently, no
      management      control reviews related specifically  to joint contracting     were
      conducted.    Since DOD policy was not effective at requiring activities to prepare
      joint contracts for depot maintenance of secondary items, there was no need for
      management controls.

      Adequacy of Management’s Self-Evaluation.            Management at the Services’
      ICPs did not identify joint contracting for depot-level maintenance of secondary
      items as assessable units under the program and, therefore, did not identify or
      report any related material management control weaknesses.



Prior Audit Coverage

      Within the last 5 years, there have been no prior audits directly related to the audit
      objectives.




                                            20
 Appendix B. Contracts With Same Repair Facility
             (Category A)

 The following table shows the number of contracts per CAGE code for instances where at
 least five contracts were awarded to the same repair facility.



Repair                                                                                      No. of
CAGE                                Name                           Location                Contracts
29242    1 Texas    Aerospace Services Inc.                1 Abilene, TX               I      116
50218     International    Enterprises Inc.                 Talladega, AL                     98
OUSU9     Digicomp Technologies                             Newbury Park, CA                  94
59364     AlliedSignal     Inc. Aerospace Equip. Sys.       Tempe, AZ                         92
13499     Rockwell Collins Inc.                             Cedar Rapids, IA                  44
2F259     Hughes Technical Services Co.                     Long Beach, CA                    42
5Y609     Duotech Services Inc.                             Franklin, NC                      42
0648 1    Litton Systems Inc. Guidance & Control Sys.       Woodland Hills, CA                 37
94580     Honeywell Inc. Avionics Div.                      Minneapolis,     MN                31
017N4    1 AlliedSignal    Inc. Electronic Systems          Teterboro, NJ                      30
98247     Canadian Commercial             Corp.             Ottawa, ON (Canada)                30
73030     United Technologies         Corp.                 Windsor Locks, CT                  29
26269     U. S. Dynamics Corp.                              Amityville,     NY                 29
78286     Sikorsky Aircraft Corp.                           Stratford, CT                      28
 18323    Westinghouse       Electric Corp.                 Cockeysville,    MD                27
08748     Eldec Corp.                                       Lynnwood,       WA                 24
03538     Lockheed Martin Corp.                             Syracuse, NY                       23
702 10    AlliedSignal     Inc.                             Torrance, CA                       22
59211     Parker-Hannifin         Corp. Aerospace Group     Irvine, CA                         22
93835    1 Parker-Hannifin        Corp.                    1Ka.Iamazoo,     MI         I       22
94987    1 Cubic    Defense Systems Inc.                   I San Diego, CA             I       21
265 12    Grumman Aerospace Corp.                            Bethpage, NY                      21
30331     Concurrent      Computer Corp.                    Fort Lauderdale,      FL           21
98897     Lockheed Martin Corp.                             Marietta, GA                       20
94117     Lockheed Martin Corp.                             Nashua, NH                         20
35351    1 Smiths    Industries Aerospace & Defense Sys.    Grand Rapids, MI                   19

                                                  21
     Appendix B. Contracts With Same Repair Facility (Category A)




c   Repair
    CAGE
    99167        Sundstrand
                                        Name
                                Aerospace
                 Hughes Defense Communications
                 Litton Systems Inc. Electron Devices Div.
                                                             Co.
                                                                               Rockford, IL
                                                                               Fort Wayne, IN
                                                                               San Carlos, CA
                                                                                                    I
                                                                                                    I

                                                                                                    I
                                                                                                        18
                                                                                                        17
                                                                                                        17
                                                                                                             I
                                                                                                             I

                                                                                                             I
                 ITT Barton                                                    La Puente, CA        I   17   I
                 Applied Data Technology           Inc.                        San Diego, CA        I   16   I
                 HR Textron Inc. Controls Div.                                 Valencia, CA         1   16   1
                 GDE Systems Inc.                                              San Diego, CA        I   15   I
I   97499        Bell Helicopter Textron Inc.                                  Fort Worth, TX       I   15   I
                 Instrument     Snecialties Co. Inc.                           Euless. TX           I   15   I
                 Raytheon Co. Electromagnetic             Systems Div.         Goleta, CA           I   15   I
                 Texas Instruments      Inc. Defense Sys. & Elect.             McKinnev, TX         I   15   I
                 Honeywell      Inc. Defense Avionics Sys. Div.                Phoenix, AZ          I   15   I
                 Lockheed Martin Tactical Systems Inc.                         Saint Paul, MN       I   14   I
                 Litton Systems Inc. Applied Technology             Div.       San Jose, CA         I   14   I
1 63005          Allison Engine Co. Inc.                                       Indianapolis,   IN   I   14
                 Howell Instruments         Inc.                               Fort Worth, TX           14
                 Whittaker Corp. Electronic Sys. Div.                          Simi Valley, CA          14
                 Hewlett-Packard      Co.                                      Clark, NJ                13
                 AlliedSignal    Inc. Aerospace Equipment           Sys.       Tucson, AZ               13
1 88236      I   Communications       and Power Industries Inc.            I   Beverly, MA          I   13
~ 94697      1Moog      Inc.                                               r East
                                                                              ~~~~Aurora, NY        I   13
     19623   I   Aerospace Avionics Inc.                                   I   Bohemia, NY          I   13

    54418        Miltope Corp.                                                 Hope Hull, AL            12
    97424        Ametek Aerospace Products Inc.                                Wilmington,     MA       12
    07690        Lear Astronics Corp.                                          Santa Monica, CA     I   12

    96238        DNE Technologies       Inc.                                   Wallingford,    CT   I   12
    97384        AA1 Corp. sub of United Industrial Corp.                      Cockeysville,   MD       12
    58078        Airtronics Inc.                                               Tucson, AZ               11
     14482       Watkins-Johnson      Co.                                      Palo Alto, CA        I   11
    62983        Vickers Inc. Aerospace Marine Defense                         Jackson, MS          I   11
     11809       Banner Ind. Inc. Thompson          Aircraft Tire              Miami, FL                11



                                                             22
                       Appendix B. Contracts With Same Repair Facility (Category A)




06848   AlliedSignal   Inc. Aerospace Equipment     Sys.   South Bend, IN        8
07860   Bogue Electric Mfg. Co.                            Paterson, NJ          8
09080   Logus Mfg. Corp.                                   West Palm Beach, FL   8
33322   Wang Federal Inc. Spares/Supplies   Sales          Herndon, VA           8
94990   Motorola Inc. Space & Systems Tech. Group          Scottsdale, AZ        8
34860   Litton Systems Inc. Laser Systems Div.             Apopka, FL            8



                                            23
     Appendix B. Contracts With Same Repair Facility (Category A)



    Repair                                                                                                  No. of
    CAGE                                  Name                                        Location             Contracts
     19062   1 Essex    Cryogenics        of Missouri Inc.                 1 Saint   Louis, MO         1       8
    99313        Communications and Power Industries                           Palo Alto, CA                   8
                 Microwave Power Tube Products
    58880        Meggit Avionics Inc.                                          Manchester,   NH                8
    5D172        Litton Systems Inc. Guidance & Control Sys.                   Salt Lake City, UT              8
     12868       Behlman Electronics         Inc. Military Div.                Hauppauge,    NY                8
    59885        Rosemount       Aerospace Inc.                                Bumsville,    MN                8
    58320        National Ah-motive Corn.                                      Oakland. CA                     8
1 50958      I   Richard Wolf Medical Instruments              Corp.       I   Vernon Hills, IL        I       7       I
I 30715      I Sabreliner       Corn.                                      I Neosho,    MO             I       7       I
    7Y 193       Raytheon Co. Equipment             Development     Lab.   1 Marlborough,      MA              7
    3 1160       Datum Inc. Bancomm-Timing              Div.                   Irvine, CA                      7
     12338       Sunair Electronics       Inc.                                 Fort Lauderdale,   FL           7
    09384        Sensortronics     Inc. CEC Vibrations Products                Covina, CA                      7
    0497 1       Rantec Microwave          and Electronics Inc.                Calabasas. CA                   7
I 28009      1 Metrum     Inc.                                             I Littleton, CO             I       7       I
    95270        Skurka Engineering         Co.                                Camarillo, CA                   7
    8U543        Lockheed Martin Corp.                                         Johnson City, NY                7
    09062        Signal Technology         Corp. Kaltec Operations             Ft. Walton Beach, FL            7
    OW6H7        Medial Components                                             Laguna Niguel, CA               7
I 34984      1 Data    General Corp.                                       I Westborough,      MA      I       7       I

    86360        Fairchild Space and Defense Corp.                             Germantown,     MD              7
I    12909   1 Cardion    Inc.                                             1 Woodbury,       NY        I       7       I
    58900        Giga-Tronics      Inc.                                        San Ramon, CA                   7
    03640        Lockheed Martin Federal Systems Inc.                          Owego, NY                       7
    0742 1       Interstate Electronics      Corp.                             Anaheim, CA                     7
    72121        Vickers Inc. Electromechanical          Div.                  Los Angeles, CA                 7
    83311        Simmonds       Precision Engine Systems Inc.                  Norwich, NY                     6
    27338        ST Microwave Corp.                                            Sunnyvale,    CA                6
    27914        AlliedSignal     Inc. Air Transport Avionics                  Fort Lauderdale,   FL           6
    33875        Raytheon E-Systems          Inc.                              Richardson,   TX                6
     25622       SC1 Technology         Inc., sub of SC1 Systems Inc. Huntsville, AL                           6


                                                               24
                            Appendix B. Contracts With Same Repair Facility (Category A)



Repair                                                                                                       No. of
CAGE                                   Name                                          Location               Contracts
00752        AIL Systems Inc., sub of Eaton Corp.                             Deer Park, NY                     6
8 1039       GEC-Marconi       Aerospace Inc.                                 Whippany,     NJ                  6
83298        AlliedSignal    Inc. Aerospace Equipment             Sys.        Eatontown,    NJ                  6
05157        Cohu Inc. Electronics          Div.                              San Diego, CA                     6
81982        Crane Co. Hydro-Aire            Div.                             Burbank, CA                       6
07639        Leland Electrosvstems           Inc.                             Vandalia. OH                      6
82152        Datron/Transco         Inc.                                      Simi Valley, CA                   6
 19710       MPC Products Corn.                                               Skokie, IL                        6
20886    1 Encore    Computer Corp.                                       1 Fort   Lauderdale,     FL   1       6       1

 15309       A and M Instrument            Inc.                               Manchester,     NH                6
OK1 Y3       Data General Corp.                                               Southborough,      MA             6
96124        HR Textron Inc. Apco Div.                                        Pacoima, CA                       6
94756        Boeing North American Inc. Autonetics                and         Anaheim, CA                       6
             Missile Systems Div.
24930        ITT Industries Inc. ITT Gilfillan Div.                           Van Nuys, CA                      6
OB6JO        Lockheed Martin/ROLM                  MIL-SPEC    Corp.          San Jose, CA                      6
5 1663   1 Crane    Co. Lear Romec Div.                                   I   Elyria, OH                I       5       I
 10112       Vemitron Corp. Motion Control Group                              San Ysidro, CA                    5
50027        Flightline Electronics         Inc.                              Fishers, NY                       5
94144        Raytheon Co. Missile Systems Div.                                Quincy, MA                        5
 17981       SC1 Systems Inc.                                                 Huntsville,   AL                  5
 17863   I   Litton Systems Inc. Guid. and Control Sys.                   I   Northridge,   CA          I       5       I
05606        Lockheed Martin Corp., Lockheed              Martin              Burlington,   VT
             Armament Systems                                                                           I       5       I
07148    I   Dynamic Controls HS Inc.                                     I Windsor Locks, CT           I       5       I

 10138       Astronautics    Corp. of America                                 Milwaukee,    WI                  5
9925 1       Litton Systems Inc. Life Support Div.                            Davenport,    IA                  5
 12511       Simmonds       Precision Products Inc.                           Cedar Knolls, NJ                  5
 12339       Metric Systems Corp.                                             Ft. Walton Beach, FL              5
66948        Harris Corp. Govt. Communication                 Sys. Div.       Melbourne,    FL                  5
6V542        Prime Time Clock Shop                                            Ozark, AL                         5
 11243       Cosmodyne       Inc.                                             Torrance, CA                      5


                                                          25
   Appendix B. Contracts With Same Repair Facility (Category A)



 Repair                                                                                   No. of
 CAGE                                   Name                                Location     Contracts
  04984        Space Corp. Div. of Marmon Motor Co.                 Garland, TX              5
  04320        IMC Magnetics Corn. Arizona Div.                     Temne. AZ                5
  56348        Litton Systems Inc. Solid State Div.                 Santa Clara, CA          5
  54779        Science   ADDliCatiOnS    Intl. Corn. SAI Tech.      San Diego. CA            5
  09087        INFODEX                                              Wolcott, CT              5
  99207        General Electric Co. Aircraft Eng. Bus. Grp.         Lynn, MA                 5
1 lK426    (   Litton Systems Inc. Litton Special Devices          1 Springfield,   PA       5
  20418        Systems and Electronics      Inc. Electronic Sys.    Saint Louis, MO          5
  24113        General Electric Co. Aviation Service                Arkansas City, KS        5
               Strotherof Aviation
  09523        Parker-Hannifin      Corp. Aerospace Group           Andover, OH              5
  25500        Lockheed Martin Tactical Systems Inc.                Akron, OH                5
  988 10       Aerosonic Corp.                                      Clear-water, FL          5




                                                      26
  Appendix C. Contracts for Repair of Items
              Supplied by Same Contractor
              (Category B)

  The following table shows the number of contracts per CAGE code with at least three
  contracts.  For example, the first line of the table indicates that the data files contain
  86 contracts with CAGE “OYOA6,” which were for the repair of items supplied by the
  same contractor and being repaired by that supplier or another CAGE code in this
  category.



Repair                                                                              No. of
CAGE                           Name                             Location           Contracts
0YOA6    Event Systems Support LLC                       San Francisco, CA              86
2B97 1   Chromalloy    Gas Turbine Corp.                 Oklahoma City, OK              27
02750    Eaton Corp. Pressure Sensors Div.               Bethel, CT                     25
17475    Gulf Aerospace Inc.                             Oldsmar, FL                    21
55070    Lucas Aerospace Inc.                            Englewood,    NJ               20
12763    Dynalec Corp.                                   Sodus, NY                      20
SN802    United Technologies     Corp.                   East Hartford, CT              18
33827    GEC-Marconi     Avionics Inc.                   Norcross, GA                   18
40089    Independent   Technology     Service Inc.       Simi Valley, CA                14
32324    Pacific Electronic Enterprises Inc.             Huntington    Beach, CA        14
81755    Lockheed Martin Corp.                           Fort Worth, TX                 14
35012    Smiths Industries                               Clearwater, FL                 13
07618    La Barge Inc. Electronics Div.                  Tulsa, OK                      12
5D832    Raytheon Service Co.                            Irvine, CA                     12
36659    Lockheed Aeronautical       Sys. Co.            Burbank, CA                    11
94404    Raytheon Co. Submarine Signal Div.              Portsmouth,   RI               11
26916    Northrop Grumman Corp.                          Rolling Meadows, IL            11
11263    Orbit Instrument    Corp.                       Hauppauge,    NY               10
43999    Boeing North American Inc.                      Seal Beach, CA                 10
5W432    California Tube Laboratory                      Santa Cruz, CA                 10
8T088    Turbine Controls Inc.                           Bloomfield,   CT               9
OZB13    Pratt and Whitney San Antonio Inc.              San Antonio, TX                9


                                                 27
  Appendix C. Contracts for Repair of Items Supplied by Same Contractor (Category B)



Repair                                                                                               No. of
CAGE                                  Name                                    Location              Contracts
09344        Kaiser Electronics                                       San Jose, CA                      9
82577        Hughes Aircraft Co.                                      Los Angeles, CA                   8
OZEO5        Leica Inc.                                               Torrance, CA                      8
89305        Simmonds      Precision Products Inc.                    Vergennes,      VT                8
2L67 1       The Gyro House                                           Auburn, CA                        7
28287        Tel&on Technologies          Inc.                        Birdsboro, PA                     7
62860        Penn Detroit Diesel Allison Inc.                         York Haven, PA                    7
9S850    1 Logistics      Services Intl. Inc.                     1 Jacksonville,        FL
28199        Henschel Inc.                                            Newburyport,       MA             6
03956        Sperry Marine Inc.                                       Charlottesville,     VA           6
7RO34        Diesel Injection Sales and Service Inc.                  Corpus Christi, TX                6
OK466        Trans Met Inc.                                           Cibolo, TX                        6
5 1025       Amplifier Acquisition Corp.                              Newbury Park, CA                  6
15755        Abbott Electronics       Inc.                            Los Angeles, CA                   6
4X685        Hewlett-Packard      Co.                                 Mountain View, CA                 6
9R328        Reliance Electric Industrial Co.                         Philadelphia,      PA             5
2A860        Johnson and Towers Baltimore Inc.                        Baltimore, MD                     5
OGCL4        Chrysler Technologies           Airborne Sys. Inc.       Waco, TX                          5
05869        Hughes Aircraft Co. Naval & Maritime Svs.                Fullerton, CA                     5
07217    1 AlliedSignal       Aerospace Canada                    1 Etobicoke, ON (Can.)        I       5
0C916    /   Precision Bearing Center Div. of MPB Core.           I   West Lebanon, NH                  5
058R3    I   Smiths Industries Aerospace & Defense Sys.           )   Clearwater, FL            I       4
44639        AAR Engine Component                Services Inc.        Frankfort, NY                     4
92003        Parker-Hannifin      Corp.                               Irvine, CA                        4
74132        Nothelfer Winding Laboratories                           Trenton, NJ                       4
4L225        Praxair Surface Technologies            Inc.             Kansas City, MO                   4
16126        Tri-Industries    Inc.                                   Terre Haute, IN                   4
13619        RF1 Corp. Sub of Del Electronics Corp.                   Bay Shore, NY                     4
9997 1       Lockheed Martin Corp.                                    Liverpool, NY                     4
22624        Marianna Airmotive         Corp.                         Cantonment,        FL             4
26101        Lamar Electra-Air        Corp.                           Wellington,     KS                4

                                                            28
   Appendix C. Contracts for Repair of Items Supplied by Same Contractor (Category B)



Repair                                                                                                     No. of
CAGE                                Name                                         Location                 Contracts
12536     Hughes-Treitler         Mfg. Corp.                              Garden City, NY                     4
OUSU9     Digicomp Technologies                                       1 Newbury         Park, CA              4
38589     Martin-Decker        Div. of Cooper Ind. Inc.                   Cedar Park, TX                      4
52661     United Technologies             Corp.                           West Palm Beach, FL                 4
55974     AlliedSignal     Inc.                                           Teterboro, NJ                       4
OYJ38     Allison Engine Co. Inc.                                         Indianapolis,    IN                 3
95402     General Dynamics Corp.                                          Avenel, NJ                          3
99380     Sierra Networks Inc. Sierracom Div.                             Hopkinton,      MA                  3
97953     Lambda Novatronics              Inc.                            Pompano Beach, FL                   3
89513     Grimes Aerospace Co.                                            Columbus,       OH                  3
05326     General Electric Co.                                            Cincinnati,     OH                  3
77445    1 United    Technologies         Corp.                       1 East   Hartford, CT                   3
9D4 19    Tektronix Inc.                                                  Gaithersburg,     MD                3
OTXMO 1 T/MAC Inc.                                                    1 New Brunswick,           NJ   1       3
77245     Harris Corp. Government                Aerospace Sys. Div. Melbourne,           FL                  3
11447     Lockheed Martin Corp.                                           Camden, NJ                          3
65888     Gallade Chemical Inc.                                           Santa Ana, CA                       3
07395    1 Primus    Technologies         Corp.                           Williamsport,     PA                3
56492    1 Vibro-Meter     Corp. Diagnostic Sys. Div.                 1 Long    Beach, CA                     3
56400    1 Koellmann     Gear Corp.                                       Waldwick, NJ                        3
01534    1 Alliant   Techsystems      Inc.                            I Mukilteo, WA                  I       3
23163    1 Chem-Tronics      Inc. Sub of Interlake Co.                1 El   Cajon, CA                        3
04879     Arnold Magnetics Corp.                                          Camarillo, CA                       3
0AS45    1 S ervice Motor Parts Co.                                   I   Montebello,     CA          I       3

29732     Lockheed Martin Aerospace Corp.                                 Chesapeake,      VA                 3
55744     Decom Systems Inc.                                              Carlsbad, CA                        3
28480     Hewlett-Packard         Co. Corporate HQ                        Palo Alto, CA                       3
20227     Scientific-Atlanta       Inc. San Diego Gpns.                   San Diego, CA                       3
08484     Transtechnology         Corp. Breeze-Eastern         Div.       Union, NJ                           3
52088     Lockheed Martin Federal Systems Inc.                            Manassas, VA                        3
4G3 16    ED Technologies          Inc.                                   San Antonio, TX                     3

                                                          29
  Appendix C. Contracts for Repair of Items Supplied by Same Contractor (Category B)



Repair                                                                                 No. of
CAGE                              Name                          Location              Contracts
09205     Lockheed Martin Aerospace Corp.                 Ranch0 Santa                    3
                                                          Margarita, CA
30782    1 Litton    Systems Inc. Aero Products Div.     1 Woodland Hills, CA     1       3
19059    1 Datametrics     Technology    Systems Corp.   1 Woodland   Hills, CA   1       3
24039    1 Varo     Inc. Electronic Systems Div.         1 Garland, TX




                                                   30
Appendix D. Federal Supply Classes With
            Similar Items (Category C)

For the 3,548 NSNs in Category C, the following                               table shows each FSC having         10 or
more NSNs.


                                                                                                                 No. of
FSC
No.                                            DWCriDtiOn                                                        NSNs     I
5998    Electrical and Electronic         Assemblies;     Boards, Cards, and Associated        Hardware            729
5999    Miscellaneous      Electrical and Electronic        Components                                             I96
7025    ADP Input/Output        and Storage Devices                                                                188
6 130   Converters,     Electrical,     Nonrotating                                                                165
5895    Miscellaneous      Communication         Equipment                                                         145
4320    Power and Hand Pumps                                                                                       119
4820    Valves. Nonnowered                                                                                         100
6625    Electrical and Electronic         Properties Measuring        and Testing Instruments                       80
1560    Airframe Structural Comnonents                                                                              71
4920    Aircraft Maintenance           and Repair Shop Specialized         Equipment                                68
1377    Cartridge and Propellant          Actuated Devices and Components                                           49
1680    Miscellaneous      Aircraft Accessories         and Components                                              48
5820    Radio and Television           Communications       Equipment,     Except Airborne                          46
4810    Valves, Powered                                                                                             46
5845    Underwater      Sound Equipment                                                                            45
5985    Antennas,     Waveguides,        and Related Equipment                                                     45
5865    Electronic    Countermeasures,        Counter-Countermeasures            and Quick Reaction Capability      39
7021    ADP Central Processing            Unit (CPU, Computer),        Digital                                      39
6650    Optical Instruments,          Test Equipment,     Components       and Accessories                          38
1430    Guided Missile Remote Control Svstems                                                                       38
6110    Electrical Control Equipment                                                                                34
6685    Pressure, Temperature,          and Humiditv Measuring           and Controlling   Instruments              34
3120    Bearings, Plain, Unmounted                                                                                  32
2915    Engine Fuel System Components,                Aircraft                                                      31
1650    Aircraft Hydraulic,      Vacuum, and De-icing System Components                                             30
5840    Radar Eauiument.        Except Airborne                                                                     29
4310    Compressors      and Vacuum Pumps                                                                           28
1270    Aircraft Gunnery       Fire Control Components                                                              28
6 150   Miscellaneous      Electrical Power and Distribution           Equipment                                    27
2835    Gas Turbines      and Jet Engines, Except Aircraft; and Components                                          24
1285    Fire Control Radar Equipment,            Except Airborne                                                    24
6105    Motors, Electrical                                                                                          23
2825    Steam Turbines       and Components                                                                         23

                                                                 31
Appendix D. Federal Supply Classes With Similar Items (Category C)


FSC                                                                                     No. of
No.                                 Description                                         NSNs
6605   Navigational Instruments                                                           23
6610   Flight Instruments                                                                 22
6115   Generators and Generator Sets, Electrical                                          19
1190   Specialized Test and Handling Equipment, Nuclear-Ordnance                          19
1420   Guided Missile Comnonents                                                           19
5841   Radar Equipment, Airborne                                                           19
5963   Electronic Modules                                                                  18
2010   Ship and Boat Propulsion Components                                                 17
3110   Bearings, Antifriction, Unmounted                                                   16
6660   Meteorological Instruments and Apparatus                                            16
3655   Gas Generating and Dispensing Systems, Fixed or Mobile                              15
5960   Electron Tubes and Associated Hardware                                              15
3040   Miscellaneous Power Transmission Equipment                                          15
2910   Engine Fuel System Components, Non-Aircraft                                         15
5925   Circuit Breakers                                                                    14
6695   Combination and Miscellaneous Instruments                                           14
2040   Marine Hardware and Hull Items                                                      14
5915   Filters and Networks                                                                14
5996   Amplifier Assembly/Subassembly and Various Components                               13
6930   Operation Training Devices                                                          13
1240   Optical Sighting and Ranging Equipment                                              13    .
5995   Cable, Cord, and Wire Assemblies: Communication Ectuiument                          13
2815   Diesel Engines and Components                                                       13
5835   Sound Recording and Reproducing Equipment                                           13
1440   Launchers, Guided Missile                                                           13
1660   Aircraft Air Conditioning, Heating, and Pressurizing Equipment                      12
5955   Oscillators and Piezoelectric Crvstals                                              12
1115   Nuclear Warheads and Warhead Sections                                               12
2990   Miscellaneous Engine Accessories, Non-Aircraft                                      12
2840   Gas Turbine and Jet Engines, Aircraft; and Components                               12
5330   Packing and Gasket Materials                                                        11
4140   Fans, Air Circulators, and Blower Equipment                                         10
1135   Fusing and Firing Devices, Nuclear Ordnance                                         10
3010   Torque Converters and Speed Changers                                                10
6680   Liquid and Gas Flow, Liquid Level, and Mechanical Motion Measuring Instruments      10
5805   Telephone and Telegraph Equipment                                                   10
6920   Armament Training Devices                                                           10
5975   Electrical Hardware and Supplies                                                    10




                                                  32
Appendix E. Definitions of Key Terms

Contract Administration   Contract administration refers to the wide variety of
                          accounting, clerical, engineering, and legal functions
                          necessary for successful execution of awarded contracts.
                          Specific functions include corrections of errors or
                          omissions, cost analyses, engineering surveillance to ensure
                          compliance with contract specifications (such as cost,
                          schedule, or technical performance), processing and
                          approval of payments, and review of reporting
                          requirements.

Contract Maintenance      Any maintenance performed under contract by a
                          commercial organization, including original manufacturer.

Depot Maintenance         Maintenance performed by designated depot maintenance
                          activities using more extensive shop facilities and
                          equipment, as well as personnel of higher technical skills,
                          than at lower levels of maintenance (organizational and
                          intermediate). Depot maintenance normally consists of
                          inspection, test, repair, modification, alteration,
                          modernization, conversion, and rebuilding of parts on
                          assemblies, subassemblies, components, equipment end
                          items, and weapon systems.

Inter-Service             Involving more than one Service.

Intra-Service             Involving more than one activity but within the same
                          Service.

Joint Contracting         Maintenance performed by a contractor for more than one
                          DOD component under one contract that is administered by
                          one component.

Organic Maintenance       Maintenance performed by a military department under
                          military control using Government-owned         or controlled
                          facilities, repair parts, spares, test equipment, tools, and
                          civil service and military personnel.

Secondary Items           Reparable components,     minor end items, and repair parts.




                                         33
Appendix F. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
    Deputy Under Secretary of Defense (Acquisition Reform)
    Deputy Under Secretary of Defense for Logistics
    Director of Defense Procurement
    Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
    Deputy Chief Financial Officer
    Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)



Department of the Army
Deputy Chief of Staff for Logistics
Auditor General, Department of the Army
Commander, Army Materiel Command



Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Deputy Chief of Staff for Installations and Logistics, Headquarters, Marine Corps
Deputy Chief of Naval Operations (Logistics)
Auditor General, Department of the Navy
Director, Dudley Knox Library, Naval Postgraduate School

Department of the Air Force
Deputy Chief of Staff for Logistics
Assistant Secretary of the Air Force (Financial Management     and Comptroller)
Commander, Air Force Materiel Command
Auditor General, Department of the Air Force




                                           34
                                                      Appendix F. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
    Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
    Technical Information Center, National Security and International   Affairs Division

Chairman and ranking minority member of each of the following Congressional
   committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
       Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                            35
Joint Logistics Audit Planning Group Members

Andrew Blackwell           Army Audit Agency
Barbara Cobble             Naval Audit Service
John Gannon                Office of the Assistant Inspector General for Auditing, DOD
Joseph Kahriger, Jr.       Army Audit Agency
Tilghman Schraden          Office of the Assistant Inspector General for Auditing, DOD
James Sommer               Air Force Audit Agency



Audit Team Members

The Naval Audit Service managed this joint audit and the following team members made
significant contributions to this report.

Luther Bragg               Naval Audit Service
Robert Collette            Naval Audit Service
Albert Enslen              Naval Audit Service
Karen Escobedo             Army Audit Agency
Lori Hood                  Naval Audit Service
Robert Jones               Army Audit Agency
Wilmer Marshall, Jr.       Army Audit Agency
Debra Calhoun-Ross         Office of the Assistant Inspector General for Auditing, DOD
Ronald Stach               Air Force Audit Agency
CDR Robert Szabo           Office of the Assistant Inspector General for Auditing, DOD
Margaret Uckert            Naval Audit Service
